<html>
<title> - SOUTH SUDAN'S BROKEN PROMISE?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                     SOUTH SUDAN'S BROKEN PROMISE? 

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 15, 2014

                               __________

                           Serial No. 113-104

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

86-297 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Linda Thomas-Greenfield, Assistant Secretary, 
  Bureau of African Affairs, U.S. Department of State............     5
The Honorable Earl W. Gast, Assistant Administrator, Bureau for 
  Africa, U.S. Agency for International Development..............    14

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Linda Thomas-Greenfield: Prepared statement........     8
The Honorable Earl W. Gast: Prepared statement...................    16

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Material submitted for the record.....................    55
The Honorable Gregory W. Meeks, a Representative in Congress from 
  the State of New York: Prepared statement......................    59


                     SOUTH SUDAN'S BROKEN PROMISE?

                              ----------                              


                      WEDNESDAY, JANUARY 15, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    I'm going to ask all the members if you could take your 
seats at this time.
    As noted by our hearing title, ``South Sudan's Broken 
Promise?'' the pledge the Government of South Sudan made to its 
people and made to the world may be slipping away from us.
    In recent weeks, a political power struggle and the 
outbreak of fighting across Sudan--South Sudan has led to the 
loss of thousands of lives. Hundreds of thousands of Sudanese 
have now been displaced. With both sides digging in their 
heels, there is no end in sight.
    The people of South Sudan sacrificed for decades to achieve 
independence. That makes the latest round of fighting, largely 
attributable to their leadership's unwillingness to build an 
inclusive and viable South Sudan, all the more infuriating.
    Indeed, it appears that the greatest threat to South 
Sudan's post-independence is South Sudan itself. This is a 
depressing picture for many in Washington.
    It's safe to say that were it not for the United States 
Government's sustained engagement, including a massive 
investment from Congress, South Sudan would not be Africa's 
newest nation.
    During this critical period, then-Senator John Kerry played 
a key role on behalf of the administration, declaring that ``we 
helped midwife the birth of a new nation.'' The U.S. is proud 
of our role in this historical event. But the sad truth is that 
this crisis is no surprise.
    During the 1990s, much of the fighting was among 
Southerners themselves with competing factions showing blatant 
disregard for human rights.
    Since South Sudan's independence, experts have been 
sounding the alarm about rising internal tensions. The entire 
cabinet was sacked. Many journalists were assassinated. 
Humanitarian aid workers were expelled from the country.
    A 2010 threat assessment by the director of national 
intelligence found that mass killings or genocide was most 
likely to occur in South Sudan over the next 5 years in that 
report. In fact, Ranking Member Engel and I sent a letter to 
President Kiir last summer.
    We warned that in the absence of marked improvement in the 
rule of law and in the presence of continued violence we fear 
South Sudan may be headed toward a longer and entrenched period 
of instability.
    Despite these warnings, I am afraid that our investment and 
diplomatic success may have skewed the judgment of U.S. 
officials on more than one occasion.
    For example, if we go back to 2012 when the U.N. Security 
Council proposed instituting sanctions against South Sudan for 
corruption and for human rights abuses, the administration 
reportedly led the effort to block their consideration.
    There was no tough love when needed. I understand the 
administration is now considering a proposal to target those 
political leaders responsible for the latest atrocities and I 
will say it is about time, and it's useful to remind the 
leadership of South Sudan that significant U.S. assistance is 
at stake.
    Forceful actions are needed before this new country is 
completely torn apart. Failing to resolve the current crisis 
will cost countless human lives and all but guarantee state 
failure in a strategically important region.
    But U.S. standing in Africa is also at stake. If we don't 
leverage our considerable influence to help resolve this 
crisis, our ability to influence events on the continent of 
increasing economic, political and security importance will 
also surely shrink.
    At the end of the day, resolving this crisis is first and 
foremost the responsibility of the South Sudanese. Leaders must 
put their country first.
    History will remember for better or worse the actions they 
take in the coming days and weeks, and I will now turn to Mr. 
Sires for his comments. He's filling in for Eliot Engel, our 
ranking member for our committee.
    Thank you, Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    I'm not going to read the ranking member's comments. I'm 
just going to make some observations myself. Here we have 
another effort of the newest country where we tried our best to 
ensure that people have a democracy, that people have--there is 
no human rights violations and we are on the brink now of 
probably having one of the longest civil wars starting.
    I hate to think in terms of what the cost of this is but I 
think it comes down to oil in many respects. I think people 
should realize that we have made a great effort, pumping in 
millions of dollars to try to build this democracy in this 
newest country.
    So I look forward to the testimonies that we have here 
today--of the people that we have here today and I thank you 
for being here today. Thank you very much.
    Chairman Royce. Thank you, Mr. Sires.
    We'll go first for 2 minutes to Mr. Chris Smith, chairman 
of the Africa Subcommittee----
    Mr. Smith. Thank you.
    Chairman Royce [continuing]. And then to Karen Bass from 
California.
    Mr. Smith. Thank you, Mr. Chairman, for calling this very 
timely and important hearing and welcome to Secretary Thomas-
Greenfield and Assistant Administrator Gast. Thank you for your 
fine service on behalf of our country.
    Mr. Chairman, since the 1980s Congress has championed 
efforts to end the enslavement of African southerners by Arab 
northerners, pressed for a declaration of genocide in Darfur, 
pushed for the peace agreement to end the north-south civil war 
and sanctioned the Khartoum government for its many violations 
of human rights.
    Unfortunately, two U.S. administrations have failed to take 
actions sufficient to sustain the gains Congress and the 
administrations have achieved. The comprehensive peace 
agreement of '05 was supposed to not only end the long north-
south civil war but also provide for a mutually beneficial 
working relationship between Sudan and South Sudan.
    However, before the provisions of the agreement were fully 
realized the Bush administration had diverted its attention 
from--to the horrific crisis in Darfur, a kind of tyranny of 
the urgent mentality and it had to be done, of course.
    But the other part of this should have been done and that 
is the implementation and the implementation was left 
unfulfilled. The Obama administration focused on the north-
south agreement again just before the South Sudan was to become 
the world's newest nation.
    But by then it was too late to conclude all the provisions 
of that accord before independence. Consequently, South Sudan 
started as a sovereign nation without a completely established 
border and serious jurisdictional questions remaining with the 
nation from which it was seceding.
    Since independence, the administration and others have 
either ignored or not fully understand the warning signs 
including incidents of continued discord among the new nation's 
ethnic groups, reports of corruption and concern over lack of 
inclusion in the constitutional process by the outside--those 
outside of the ruling SPLM.
    The current scope of the conflict in South Sudan belies the 
confidence expressed about problems being effectively managed. 
To end the current conflict, we do need--we don't need just 
another piece of paper that makes us feel good, although maybe 
there needs to be agreements and signatures to that paper.
    But we do need a longer-term strategy that works on social 
reconciliation from the grass roots up, creates a more open and 
inclusive political process and better guarantees more 
accountability from the government of the day.
    Meanwhile, we do have to do everything humanly possible to 
make sure that the refugees, the maybe as many as 10,000 or 
more people who have died and all of the horrific consequences 
from this fighting that to the best of our ability we meet that 
humanitarian crisis and I look forward to this hearing and any 
answers to any of those questions.
    Thank you, Mr. Chairman.
    Chairman Royce. Congresswoman Bass.
    Ms. Bass. Chairman Royce, as always I want to thank you for 
both your leadership of this committee and for holding today's 
important hearing. I also want to thank our witnesses today.
    I've had the pleasure of working with both Assistant 
Secretary Thomas-Greenfield and Assistant Administrator Gast 
and I look forward to hearing your perspective on the 
developments in South Sudan and the actions taken by our 
Government to help South Sudan reach a peaceful resolution.
    On July 9th, 2011 we all watched with great excitement, 
anticipation and joy as after decades of violence South Sudan 
became the world's newest nation.
    But that--but today that excitement, anticipation and joy 
is being tested as South Sudan is engulfed in conflict--the 
terrible violence including the ferry that sunk recently and 
the over 200 people that died trying to escape the violence.
    To address this, first and foremost the violence needs to 
stop and the healing needs to begin. The parties involved must 
understand this and look to the future of their country and to 
their responsibilities and leaders.
    As members of the international community, I know we're 
fully engaged regarding this crisis and must remain so to 
ensure peace and stability in South Sudan.
    Most immediately we must work with the parties toward the 
success of the ongoing negotiations in Addis. I look forward to 
hearing from the assistant secretary regarding the efforts of 
the U.S. special envoy for Sudan and South Sudan, Ambassador 
Booth, and specifically what more we can do.
    We must also ensure the provision of critical humanitarian 
relief to the internally displaced persons and other victims 
caught in the middle of this conflict and I look forward to 
hearing from Assistant Administrator Gast in this regard. I 
want to acknowledge both of your efforts currently.
    I know that we are contributing hundreds of millions of 
dollars toward the humanitarian efforts and that you have 
reallocated funds specifically to deal with this situation. We 
know that for the future of South Sudan the countries' citizens 
and their leaders must live up to the responsibilities as the 
newest nation in Africa.
    I'm committed to continuing working toward the promise of 
South Sudan and I look forward to working with my colleagues 
here in Washington, and I recognize that the situation looks 
dire now but I would just encourage all of us to maintain that 
commitment and not give up on South Sudan.
    Thank you. I yield back my time.
    Chairman Royce. This morning we are pleased to be joined by 
representatives of the Department of State and by the U.S. 
Agency for International Development.
    Ambassador Linda Thomas-Greenfield serves as the assistant 
secretary for the Bureau of African Affairs. Since beginning 
her Foreign Service career in 1982, she has worked in Nigeria, 
in Kenya, in Pakistan and as Ambassador to the Republic of 
Liberia where she served during the critical 2008 to 2012 
period.
    Mr. Earl Gast is a 21-year veteran of the U.S. Agency for 
International Development who serves as assistant administrator 
for Africa and prior to his appointment he served as USAID's 
mission direction for Afghanistan. He was once one of USAID's 
first employees to be stationed in Iraq.
    Without objection, the witnesses' full prepared testimony 
will be made part of the record.
    The members here will have 5 days to submit any questions 
or any statements, and also without objection the statement of 
John Prendergast, co-founded of the Enough Project, is 
submitted for the record and we will begin with Ambassador 
Thomas-Greenfield.

 STATEMENT OF THE HONORABLE LINDA THOMAS-GREENFIELD, ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Thomas-Greenfield. Thank you, Chairman Royce.
    Chairman, Congressman Sires, members of the committee, let 
me start by thanking you for the opportunity to testify before 
you today.
    As you know, Special Envoy Booth is unavailable to testify 
today because he is in Addis and he is working tirelessly on 
the peace process. I know that this subject before us today is 
one about which you and other Members of Congress care deeply.
    Mr. Chairman, last week marked a major anniversary for 
South Sudan, one that few celebrated. January 9th marked 3 
years since South Sudan's historic referendum for independence 
and 9 years since the signing of the Comprehensive Peace 
Agreement.
    Today, South Sudan again is riven by conflict, not with 
Khartoum but with itself. The title of today's hearing, ``South 
Sudan's Broken Promise?'' while appropriately framed as a 
question, those words accurately capture what has been 
unfolding in the world's youngest country not just in the last 
few weeks but over the past few months. The fact that South 
Sudan faces internal challenges is not in and of itself 
surprising.
    Internal political tensions were building for months. 
Political space was shrinking, intercommunal tensions are long-
standing and the country's institutions are weak.
    Nonetheless, the speed of this is nothing short of 
astonishing. During--days after hosting an international 
investment conference on December 4th and 5th, which we thought 
went quite well, political struggles at a party meeting on 
December 14th, just 10 days later, it is still unclear how the 
clash began and erupted on the 15th into the devastating 
broader conflict that now grips the country today.
    It is heartbreaking for the people of South Sudan and for 
us as Americans who have made an enormous investment, as you've 
all noted, in this country and who so much want to see it 
escape the terrible cycle of violence that marked its past and 
now, today, threatens its future.
    This conflict is exacting a terrible price on the people of 
Sudan who already face some of the most daunting development 
challenges in the world. The numbers are grim and grow more so 
every day. The International Crisis Group has estimated that 
more than 10,000 people may have been killed.
    Over 400,000 have fled their homes including 65,000 who 
have sought refuge in neighboring countries. We don't know 
whether these numbers of dead are accurate but we know that a 
lot of people have died.
    There are reports of forced recruitment, sexual violence 
and the recruitment and use of child soldiers. Political 
rivalries have taken on ethnic dimensions. Atrocities are being 
committed. Men, women, and children are caught in the 
crossfire.
    Lest there be any doubt, I would like to make crystal clear 
where we stand when it comes to this conflict. First and 
foremost, neither the United States nor the international 
community will accept the armed overthrow of the 
democratically-elected Government of South Sudan.
    Second, hostilities must stop. Any and all violence 
directed at civilian populations must end and those responsible 
for perpetrating the violence and abuse must be held 
accountable.
    Third, this crisis will not be resolved on the battlefield. 
Finally, all parties must permit immediate and unconditional 
humanitarian access to all in need, to the now hundreds of 
thousands of South Sudanese men, women, and children who are 
the real victims of this violence.
    The United States has engaged in an all-out diplomatic 
effort to help bring an end to the fighting with engagement by 
Secretary Kerry, National Security Advisor Susan Rice, Special 
Envoy Booth, Ambassador Page and other high-ranking past and 
present officials with President Kiir and former Vice President 
Machar as well as with the heads of state and governments' 
ministers in neighboring countries and around the world.
    The immediate security situation remains critical, 
particularly for the thousands of civilians forced from their 
homes. As the crisis began to unfold, we proposed and the 
Security Council unanimously adopted a resolution nearly 
doubling the authorized troop ceiling for UNMIS.
    In turn, we are now actively encouraging member states to 
provide additional troops and police units. The special envoy 
to Sudan and South Sudan, Ambassador Booth, is actively trying 
to resolve this crisis.
    He has been in the region since December 22nd, working 
around the clock. He has met with President Kiir and other 
officials. He travelled to South Sudan to meet with Riek 
Machar.
    He secured the first official visits with the group of 
political detainees in Juba and he sat down with local 
religious leaders and civil society members to help find a way 
forward. He has also been working closely with the other 
special envoys in the region.
    In Juba, Ambassador Page and her team have led an 
extraordinarily hard--difficult diplomatic effort under very 
difficult circumstances.
    This said, and as I said before, an all-out effort on our 
part, and, especially given our special history with Sudan, is 
ongoing. We are working closely with South Sudan's neighbors 
through the East Africa's Intergovernmental Authority on 
Development, who are spearheading the mediation efforts.
    A special summit on South Sudan was held at the heads of 
state level 12 days after the conflict began and, thanks to 
robust engagement, representatives of both parties arrived in 
Addis for negotiations just a few days later.
    We are encouraged by IGAD's leadership in convening the 
parties and strongly support the efforts of former Ethiopian 
Minister Seyoum and Kenyan General Lazaro Sumbeiywo to find a 
peaceful solution to the political dialogue.
    And over the past weekend, Ambassador Booth travelled with 
the mediators and other members of the diplomatic community to 
South Sudan where they met with Riek Machar to directly press 
him to enter into a cessation of hostilities immediately and 
unconditionally.
    An agreement to end hostilities will provide much needed 
time and space for dialogue to begin on the core political and 
governance issues that really are the root causes of this 
crisis. Both sides must recognize that there can be no military 
solution.
    We have made clear to the rebels that we will not recognize 
a violent overthrow of a democratically-elected government and 
at the same time we have urged the government to open political 
space to allow for greater inclusion. Each day that the 
conflict continues the risk of all-out civil war grows and 
tensions continue to rise.
    Let me conclude by saying that I am gravely concerned that 
the crisis in South Sudan has the potential to escalate even 
further.
    South Sudan's leaders on both sides are breaking their 
promises to their own people. While we do not know the scale of 
the atrocities that have been committed thus far, there is 
clear evidence of targeted killing. Dinkas are killing Nuer, 
Nuer are killing Dinkas.
    Each violent act threatens to return Sudan to the cycle of 
conflict and destruction that South Sudanese of all ethnicities 
and backgrounds voted to end in their vote for independence in 
2011.
    But just as each act of violence may ignite retribution, 
each step toward peace offers the chance to rebuild. Breaking 
this cycle and ensuring that Africa's newest nation continues 
to move forward rather than backward is the highest priority of 
the United States Government.
    I thank you for your time, I thank you for your commitment 
to the people of South Sudan and for our efforts in that 
region, and I would be happy to take your questions.
    [The prepared statement of Ms. Thomas-Greenfield follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you very much, Ambassador.
    We go now to Mr. Gast.

      STATEMENT OF THE HONORABLE EARL W. GAST, ASSISTANT 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Gast. Good morning, Chairman Royce, and also good 
morning, Congressman Sires and members of the committee, and 
thank you for inviting me to testify on the crisis in South 
Sudan and the U.S. Government response.
    The U.S. Government, especially members of this committee, 
have been strong supporters of the people of South Sudan for 
decades throughout the civil war, during the implementation of 
the Comprehensive Peace Agreement and since independence.
    Yet today this new nation's hopeful future has been 
obscured by an outbreak of horrific violence that threatens its 
hard-won struggle for peace and stability.
    Even before the conflict emerged, much of South Sudan was 
staggeringly underdeveloped and vulnerable to conflict. Forty 
percent of people needed humanitarian assistance.
    The lack of roads and services made providing that aid 
uniquely difficult and recurrent droughts, floods, violence, 
macroeconomic shocks and returnee and refugee inflows have only 
exacerbated existing needs, and these challenges have 
multiplied since the fighting began.
    This conflict has now claimed thousands of lives and driven 
more than 480,000 persons from their homes. While aid agencies 
had already prepositioned stockpiles of relief supplies for 
humanitarian needs that existed before the fighting erupted 
last month, violence has prevented some organizations from 
accessing them and it's also disrupted supply chains.
    Offices and warehouses have been looted. Drivers 
transporting supplies have been killed and we are routinely 
denied access to roads by the SPLA, the army, and armed groups.
    The Nile River, which is typically a major conduit for the 
movement of supplies, has been off limits for weeks. So USAID's 
challenge and the challenge that humanitarian agencies face are 
twofold.
    We must not only respond to emergency needs, those that 
were caused by the conflict and those that pre-existed the 
conflict, but also continue to work toward long-term 
development, goals that will help lift the South Sudanese out 
of this cycle of poverty and conflict.
    Toward that end, we are developing a nimble platform that 
allows our partners to adapt their activities to meet shifting 
needs.
    The additional $50 million announced earlier this month is 
supporting a multi-sector operation for humanitarian assistance 
to help protect civilians and survivors of violence, manage 
sites hosting newly-displaced persons and reunify families that 
have been separated by the fighting.
    Importantly, it also helps support the U.N. Humanitarian 
Air Service which is currently the main means of transporting 
aid workers and lifesaving supplies to nine UNMIS bases that 
are now sheltering some 66,000 persons.
    Over decades of work in South Sudan our partners have 
developed the relationships and expertise needed to run these 
operations. The U.N. estimates that relief agencies have 
reached about half of the newly-displaced persons.
    However, insecurity and obstruction continue to impede 
their ability to reach all those in need so we continue to push 
for unfettered humanitarian access and respect for humanitarian 
workers, which are critical to an effective response.
    Concurrent with our emergency response we are also 
reviewing how our broad portfolio of long-term development 
activities might support South Sudan's recovery from the 
immediate crisis as well as address the root causes of 
violence.
    Conflict mitigation and reconciliation processes will be 
key to helping alleviate the current conflict, rebuilding trust 
among communities and supporting local and national healing to 
re-knit South Sudan's social fabric.
    Civil society and the media, which serve as the eyes and 
ears of the people and hold the government accountable, must 
play a central role in that process alongside a diversity of 
other voices including political parties.
    We also need to protect development gains in health, 
education and agriculture while continuing to help build the 
institutions of a functioning, legitimate and viable state.
    However, our assistance will have limited impact without 
the sustained commitment of South Sudan's leadership, something 
that is currently missing, to set the country on the right 
course of inclusive reform and development.
    Unless that happens, this crisis will deal another major 
blow to South Sudan's future as a nation and to the hopes of 
its people.
    Thank you for your time today and I look forward to your 
questions.
    [The prepared statement of Mr. Gast follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Well, thank you.
    If I could start with this question. When we look at 
Khartoum's machinations over the years and their activities in 
South Sudan, I think that they have a long history of meddling 
within the factions there. And so now you have Bashir making a 
trip--a recent visit to Juba and I was wondering if we have any 
indication that he might have made any guarantees to President 
Kiir.
    At the same time, Machar had that history prior to the 
establishment of South Sudan of switching sides, of joining the 
regime, of working with Bashir, and I wondered if you have any 
indication that he's reached out to Bashir for any form of 
assistance.
    It wouldn't surprise me if both--if, you know, Bashir and 
those in the north who have a long history of repression down 
there and connections with both sides in this--in these 
factions that they might be strengthening their hands in their 
interaction with the south. But I don't--I don't have--other 
than the trip there I don't have any information.
    Has the State Department conveyed any messages to the head 
of state in Sudan about meddling there? I just wondered what 
you could tell us.
    Ms. Thomas-Greenfield. Thank you for that question.
    We are aware of Bashir's trip to South Sudan. He initially 
travelled in with the IGAD heads of state as a member of IGAD 
but he went in separately. We initially heard rumors that he 
would be providing security for the oil fields in--around the 
border.
    They later announced that they had agreed to provide 
technical assistance. But I think all of that remains to be 
seen. It is something that we are concerned about and we are 
watching very closely as well.
    We have not had any direct conversations with President 
Bashir, as you know, but we have conveyed across the region 
that we do not see this as being resolved militarily and we 
have encouraged countries to be very circumspect about any 
assistance to the warring parties.
    Chairman Royce. Let me ask you this question. I brought up 
the issue of the U.N. attempting to exert some leverage on that 
government in South Sudan with respect to bringing sanctions in 
play. Now we have a new report.
    I was going to ask you if it's accurate and if the 
administration is considering sanction there and specifically 
whether you'd try to sanction individuals in the government. 
Would they be targeted if they were complicit in this 
implosion?
    Ms. Thomas-Greenfield. Sir, we are looking at a variety of 
options to hold accountable those individuals who are 
responsible for the atrocities and violations of human rights 
and, particularly, we're looking at those individuals who are 
blocking efforts to--who are spoiling our efforts to achieve 
peace. They are on both sides, both within the government as 
well as those anti-government forces.
    Chairman Royce. And one of the other observations that I 
made in my opening statement was that in many ways the writing 
was on the wall here. You had an enormous amount of, shall we 
say, authority being consolidated in the presidency. At the 
same time, you had corruption that was evident.
    This was a concern--the magnitude of it--by the U.N. 
report, and the authoritarian rule was moving forward step by 
step. First, the local governors were pushed out by the 
President.
    Then in March, behind closed doors, when he was approached 
by the Vice President for his increasingly strong-armed, you 
know, tactics the Vice President was dismissed. Machar was 
tossed. So was the entire cabinet--the entire cabinet.
    So throughout the year when these episodes occurred and 
almost monthly we were reading something about the difficulties 
at hand, what was the engagement from the administration?
    Did someone go from Washington to Juba to say enough or to 
engage or what was going on?
    Ms. Thomas-Greenfield. Well, first and foremost, our 
Ambassador was actively engaged and----
    Chairman Royce. I understand that.
    Ms. Thomas-Greenfield [continuing]. Issued public and 
private statements concerning the situation. We also had 
meetings here in the U.S. on the margins of the U.N. with 
President Kiir. I can't answer whether anyone travelled. I can 
check on that and get back to you.
    Chairman Royce. I think it's very important because I think 
we perhaps had an opportunity to bridge that internal divide. 
But that probably was not going to happen without a tremendous 
amount of international pressure, either the--at the U.N. where 
they tried to leverage, you know, their force with the threat 
of sanctions there to stop the corruption, stop the 
authoritarian rule and--or, you know, with direct engagement 
from the highest levels here in the United States where we laid 
out the consequences should this road of just destroying any 
viable opposition and tossing out cabinet members and, you 
know, taking away all the governorships.
    I mean, it would seem to me that it would be pretty clear 
that in an environment like that without our direct engagement 
in terms of sending high-ranking officials there to sort of 
spell out the consequences that we would----
    Ms. Thomas-Greenfield. I'm being passed a couple of notes 
that----
    Chairman Royce. Yes.
    Ms. Thomas-Greenfield [continuing]. Indicate that both Gail 
Smith and General Rodriguez travelled out to the region. But I 
do know that there were high-level meetings with Salva Kiir in 
New York on the margins of the U.N.
    Chairman Royce. Let me ask you also, we had--I appreciate 
that information. Our Embassy in Juba, I guess, is the old 
USAID compound. Doesn't meet safety standards.
    In a briefing for the committee, Undersecretary Kennedy 
described the physical security there as pathetic and this 
latest evacuation, I think, underscores the importance of the 
committee's work to have enacted the Department of State 
Operations and Embassy Security Authorization Act, which we 
passed in a bipartisan way overwhelmingly in the Senate. We're 
trying to get that into law.
    The draw down of the Embassy was reinforced and I think 
that was the first use of new military units created in the 
wake of Benghazi. These units are the Djibouti-based East 
Africa Response Force and the Spain-based Marine Task Force.
    What are the lessons learned from the first deployments of 
these units and will we use them differently in the future? And 
the FAST Team Marines based in Roda, Spain are also designed to 
respond to these types of contingencies.
    I don't think they were deployed in this case. I was going 
to ask about that, and let me just ask you about that aspect of 
security.
    Ms. Thomas-Greenfield. Good. Thank you.
    As you no doubt know, the security of our people in Sudan 
and everywhere where we have Embassies in the world is our 
highest priority. So that was the very first thing that we 
looked at.
    We did an initial draw down of our staff and now we're down 
to minimal staff being supported by a very large security team. 
We have 45 from the East Africa Response Force who are there.
    In addition, we have nine diplomatic security officers and 
seven Marines who are there with a very, very small staff 
headed by the Ambassador there. We're looking at the situation 
and monitoring the situation almost on an hourly basis.
    We come together several times a day to review security in 
and around Juba and at any point when we determine that we can 
no longer keep our people safe we'll have to make the difficult 
decision of bringing down our flag and bringing our people 
home.
    It is important, we believe, to continue to maintain a 
diplomatic presence. We think there is a key role for our 
Ambassador to play in terms of political engagement with the 
parties there but also to not--to be there to encourage the 
Sudanese who are going through this difficult time.
    So our flag going down will send a very, very strong 
signal. But, again, we know that our--the safety of our staff 
is our most important priority.
    Chairman Royce. Thank you, Ambassador. Mr. Sires.
    Mr. Sires. Can you comment how much of the struggle is an 
effort to control the revenues of oil? Can you expand upon 
that?
    I mean, obviously, there's a lot of corruption and I think 
behind all this there's an effort to control the only real 
source of money that Southern Sudan gets.
    Ms. Thomas-Greenfield. I'd say that that is part of it but 
there are a number of issues related to the constitution and 
how the government is organized and how inclusive the 
government is that has also led to this.
    But I'm certain that all--having access to all revenue 
plays a key role in the motivations of those who are involved.
    Mr. Sires. Can you comment on that?
    Mr. Gast. Well, certainly, we've seen a significant 
reduction in oil production as many of the international staff 
of the Chinese companies and Malaysian companies have left.
    So that's something that we're concerned about and, 
obviously, Sudan, which benefits from the oil, is also 
concerned about, and as the chairman had mentioned there was an 
offer of technical assistance to come across the border to help 
with the maintenance of the wells.
    I agree with Ambassador Greenfield that there are many 
motivations for this. One is personal ambition. The other is 
control of resources, which would include oil but also, 
basically, a battle for control of the political party and for 
political domination.
    Mr. Sires. What role is China playing in all this? Are they 
being constructive or are they just staying on the sidelines 
like they usually do?
    Ms. Thomas-Greenfield. The Chinese have some major 
investments in the oil fields so there is a Chinese envoy who 
has been in Addis throughout most of the talks that have gone 
on in Addis and there was a visit by a senior Chinese official 
as well.
    They have been playing a very positive role in trying to 
push for peace talks and peace negotiations because I think 
it's in their interest to have a stable South Sudan that--where 
the oil production is flowing. Right now, workers--many of the 
Chinese workers have been evacuated from the oil fields.
    Mr. Sires. And I think we give over $300 million a year in 
humanitarian help. How do we--do we track it to make sure it 
gets to the people that's needed or how do we track this?
    Mr. Gast. It's a very complex and broad architecture that's 
been developed by the U.N. The U.N. has been there for years 
and it includes multiple U.N. agencies that are coordinated by 
a humanitarian coordinator who also serves as the deputy head 
of mission for UNMIS.
    So that's the major infrastructure. Below that are the 
service-oriented NGOs that support the actual delivery of 
services and so we support a group of between 15 and 20 NGOs 
that are out implementing it.
    We also support the U.N. organizations and it's roughly a 
60-40 split. Sixty percent of what we provide in humanitarian 
assistance goes toward the U.N. agencies and 40 percent goes 
into humanitarian NGOs.
    We are currently tracking our assistance through NGO 
reports, U.N. reports. We have a DART team that is based in 
Nairobi right now and they're constantly coordinating with our 
people in the field--our Embassy--as well as the U.N. agencies 
and also the NGOs that are operating in country.
    Mr. Sires. Thank you very much.
    Mr. Smith. Thank you. Let me ask a couple of questions, if 
I could.
    First of all, let me begin, again, thank you for your 
service. I know that we are all--I was glad to hear you say 
that the U.S. has engaged in an all-out diplomatic effort and 
it's not surprising.
    But I do have a question. You did mention that meetings 
with Salva Kiir occurred on the perimeters of the U.N. That 
would have been last September, though, wouldn't it? Or was he 
here more recently than that?
    Ms. Thomas-Greenfield. No. The high-level meetings occurred 
in--on the sidelines.
    Mr. Smith. But it would have been September?
    Ms. Thomas-Greenfield. Yes. Not since----
    Mr. Smith. Not since the crisis, just so we're clear?
    Ms. Thomas-Greenfield. We've had a number of high-level 
calls to Salva Kiir since this started.
    Mr. Smith. Okay.
    Ms. Thomas-Greenfield. But----
    Mr. Smith. Does that include President Obama?
    Ms. Thomas-Greenfield. No, sir. Susan Rice from the 
National Security Agency. The national security advisor called 
and Secretary Kerry has made numerous calls to Salva Kiir.
    Mr. Smith. Would the President consider doing that? I do 
think, you know, just as Bush made a huge impact on getting the 
Comprehensive Peace Agreement in the first place it would be 
very helpful to, I think, have the President engage both 
individuals, Machar as well as Salva Kiir. If you could take 
that back I think it would be very, very useful.
    Ms. Thomas-Greenfield. I will.
    Mr. Smith. You mentioned the 10,000 people who may have 
been killed--International Crisis Group. How did they arrive at 
that number?
    Ms. Thomas-Greenfield. I don't--I can't say how they 
arrived at the number. We heard a number from the U.N. of about 
1,000. We think that is extraordinarily low.
    I think the 10,000 figure may be high but, truthfully, we 
don't know the number because we have not had enough access to 
get in to do that kind of assessment and that's one of the 
things we're hoping with the cessation of hostilities, working 
with the U.N. Human Rights Commission and others that we can 
get better fidelity on those numbers.
    Mr. Smith. You said over the weekend Ambassador Booth met 
personally with other diplomatic individuals with Machar. Was 
there any breakthrough? Did he give any kind of assurance that 
he may be moving toward peace as opposed to continued 
hostility?
    Ms. Thomas-Greenfield. We felt a bit of confidence that he 
was close to agreeing to a cessation of hostilities. It has not 
happened yet and we're still pushing that.
    Mr. Smith. Let me ask you, has there been an effort to try 
to bring the faith community into this? You know, I know Bishop 
Eduardo Kussala. I've met with him many, many times.
    There are large numbers of unbelievably competent--he's 
testified here, as have others--individuals who might be able 
to bridge the hostility gap and the fact is, as we all would 
recognize, this could go from unbelievably horrific, as Mr. 
Gast pointed out, to even worse.
    The 10,000 could double, triple unless there's a huge 
tourniquet put on this killing. Has the faith community been 
asked to become mediators in this crisis?
    Ms. Thomas-Greenfield. They have been actively involved. 
Secretary Kerry was in Rome over the weekend and spoke to the 
Pope. The Pope has mentioned South Sudan several times in his 
statements. Secretary Kerry, while in Rome, raised the issue.
    Ambassador Booth has met with the faith community in Juba 
and has been supporting their efforts to call for peace.
    Mr. Smith. Again, I would respectfully submit that putting 
them in a more pivotal situation might make or diffuse at least 
some of the hostility as it grows in intensity. Yes?
    Mr. Gast. Congressman, just to add, you're absolutely right 
and we're engaging with faith-based organizations and leaders 
to help at the community level and we're using the support that 
we provide to a network of independent broadcasters around the 
country to get those peace messages out.
    Mr. Smith. I appreciate that.
    You mentioned, Ambassador Thomas-Greenfield, very 
importantly that humanitarian access is extremely important--
you know, the idea of unfettered access and unconditional.
    Has either side been--could you give a detailed analysis 
either now or for the record as to who has been more 
cooperative on both sides of this divide?
    Are they allowing it? Is Salva Kiir allowing it?
    Ms. Thomas-Greenfield. I think both sides are equally 
guilty but we have been able to recently get some humanitarian 
flights into some of the northern areas where we were--the U.N. 
was blocked. Earl may have some more detail on exactly what has 
been done but we--recently the U.N. has been able to fly in 
humanitarian assistance.
    Mr. Smith. But where is it being blocked? We all remember 
during the South Sudan when UNICEF testified right here as well 
as our own administration how difficult it was to get in. They 
had to get permission from Khartoum. Is this deja vu now in 
terms of humanitarian access?
    Mr. Gast. Well, they require--they certainly require 
approval from Juba and often it's the circumstances on the 
ground that affect whether or not flights can come in.
    So, as the Ambassador mentioned, it's mainly in the areas 
where there's conflict like Malakal, Bentiu and Bor. Those are 
the areas that are most difficult to access.
    Mr. Smith. Two very quick follow-up questions or questions. 
Mr. Gast, is there any evidence of any disease outbreaks 
occurring, and secondly, Ambassador, South Sudan has a 
population of about 8.2 million people. The Dinka are 1.5 
million, the Nuer 800,000.
    Where are the other ethnic groups breaking in terms of are 
they aligning themselves with one group or the other? Do we 
have a breakdown of that? Because that could, of course, 
exacerbate the situation if coalitions are built.
    Ms. Thomas-Greenfield. In terms of the other ethnic groups, 
I think they have been quietly staying on the sidelines hoping 
that this situation eventually resolves itself.
    I think if it continues over a long period of time we'll 
see some of those people who've been standing on the sidelines 
joining one side or the other and we're hoping we don't get to 
that point.
    Mr. Smith. Before Mr. Gast answers, the Americans who have 
been airlifted and gotten out of the country are there still 
Americans at risk?
    Ms. Thomas-Greenfield. Yes, sir. We have evacuated 450 
Americans since this conflict started and we're monitoring 
another 200 to 300 who are still in South Sudan who have not 
either requested evacuation or we have not been able to reach 
them.
    But this is something that we monitor, again, on an hour to 
hour basis. We have phone numbers of individuals. We reach out 
to those numbers on a regular basis.
    They know where to call us. We have many of them calling 
out to us. Some of them are connected with the U.N. and are 
there on official responsibilities.
    Mr. Smith. Have any of them been injured besides the 
service members that were during the rescue attempt?
    Ms. Thomas-Greenfield. We have heard that two American 
citizens were killed in the battle. These were Americans of 
Sudanese descent who were in communities. That, again, is not 
information that I can confirm. There could be more. There 
could be fewer.
    Mr. Gast. Congressman, going back to your question about 
outbreaks of disease, early on there were rumors of potentially 
cholera breaking out in some of the camps in Juba. Those proved 
to be unfounded.
    Nonetheless, it really did spark a drive by the U.N. 
organizations and NGOs to ramp up sanitation efforts as well as 
immunization efforts in the camps. So no disease outbreaks.
    Mr. Smith. Thank you.
    Chairman Royce. Congresswoman Karen Bass from California.
    Ms. Bass. Thank you.
    Actually, just following up briefly on Mr. Smith's question 
about the Americans that are there, who are they? Are they 
primarily Sudanese-Americans? I know you said some of them are 
affiliated with the U.N. but what are they doing?
    Ms. Thomas-Greenfield. Some of them are working with NGOs. 
Some are with humanitarian organizations and some are private 
citizens who are there.
    Ms. Bass. I see.
    Ms. Thomas-Greenfield. Again, we are monitoring the numbers 
that we have. Some of them were brought to our attention by 
relatives who are here in the United States and they've given 
us numbers that we have not been able to successfully reach 
people on.
    Others have been in touch with us on a regular basis. We 
have encouraged, in fact, strongly urged that all American 
citizens leave Sudan in our travel warnings and that's a 
warning that we repeat on a regular basis.
    There are still commercial flights that are flying out. We 
are no longer providing the charter flights that we were 
providing but commercial flights are still available and we----
    Ms. Bass. Really?
    Ms. Thomas-Greenfield [continuing]. Encourage people to 
take advantage of those and leave.
    Ms. Bass. Okay. Thank you.
    So I wanted to ask a few questions to understand some of 
the nature of the conflict. So I know that there are--that 
Kiir--President Kiir is holding political prisoners. I wanted 
to know who these people were.
    Are they combatants? Who are they? I know that our effort 
is to try to get them released. But how many, who are they, et 
cetera?
    Ms. Thomas-Greenfield. Currently, we are aware that there 
are 11 political detainees who are being held. Some of them 
were in government positions. They have made clear in the 
meetings that we have held with them and the negotiators have 
held with them that they are not combatants.
    They do not want to be connected with the cessation of 
hostilities because they are not involved in that. But they 
have political interest and we think they ought to be involved 
in any political dialogue that should take place. So we have 
been pushing for them to be released along with the IGAD 
leaders and others in the region.
    Ms. Bass. Is Machar still holding on to his position that 
President Kiir has to step down in order for there to be a 
cessation of the violence?
    Ms. Thomas-Greenfield. We have not heard that from him. The 
only condition that he has announced is that the detainees must 
be released before there is a cessation of hostilities. We're 
trying to separate those two issues out.
    We think there should be a cessation of hostilities 
immediately and we're pushing at the same time but separately 
that the detainees be released so that they can participate in 
the political dialogue and in the negotiations that follow.
    Ms. Bass. And in terms of the conflict that's going on 
currently, are you concerned about fighters from Al-Shabaab or 
other folks or efforts, terrorist groups from outside of Sudan 
coming in? Is there any evidence of that?
    Ms. Thomas-Greenfield. We have not seen any evidence of 
that. Of course, it's always a possibility but it's not 
something that we've seen any evidence of and certainly the 
South Sudanese, most of whom--all of whom are Christian, I 
would not assume that they would welcome that kind of 
participation and I hope they would not welcome them.
    Ms. Bass. Thank you. And then we--you've mentioned in both 
of your presentations about the blocking of humanitarian 
efforts and I wanted to know if the blocking of the 
humanitarian efforts is on both sides.
    Is it one side? And is China involved in any of the 
humanitarian efforts either financially or logistical support?
    Mr. Gast. It is on both sides, Congresswoman Bass. It's 
also in the areas primarily where there's conflict going on and 
so that's what's really impeding our ability to deliver 
humanitarian assistance in those conflict areas primarily right 
now concentrated in Malakal, in Bentiu and Bor.
    Ms. Bass. Okay. And in terms of our efforts, is there 
anything else that you could think that we need to be doing as 
Members of Congress, what could we do to be helpful to the 
effort?
    Ms. Thomas-Greenfield. Let me just say that what you're 
doing today is helpful. It lets the South Sudanese know that 
what is happening there has a tremendous interest across our 
Government.
    Calls to Sudanese officials, the kinds of public statements 
that have been made--those are all very, very helpful because 
they are listening to those statements. They're very conscious 
of what we are thinking and what we are saying.
    Ms. Bass. Thank you.
    Chairman Royce. We'll go now to Mr. Rohrabacher of 
California.
    Mr. Rohrabacher. Are we confident that the two sides here 
can control their own people? Did they make an agreement? Does 
that mean anything more than just two men making an agreement 
or are they in control of their own forces?
    Ms. Thomas-Greenfield. We do have concerns about command 
and control. There are a lot of militias that are formed 
separate from this battle and it is not clear that either side 
can control these individuals should they decide to continue to 
fight.
    So that is an ongoing concern that we all have, and as we 
push for a cessation of hostilities between the two major 
forces I think we'll still be trying to bring under control the 
efforts of militias who have joined in to the fight for their 
own reasons.
    Mr. Rohrabacher. That's pretty tough.
    Ms. Thomas-Greenfield. Yes, sir.
    Mr. Rohrabacher. Yes. What other countries--what role are 
other countries playing in this? Do you have some--a good guy 
list and a bad guy list of countries that are doing something 
and contributing in a way that you would think is a positive 
thing versus some other countries that may be actually hurting 
the situation?
    Ms. Thomas-Greenfield. Right now, everyone seems to be on 
the side of trying to bring this conflict to an end, and the 
IGAD countries who are all the neighbors have been playing a 
very, very positive role.
    We have worked closely with other special envoys such as 
the U.K and, as I mentioned earlier, the Chinese special envoy. 
There's an EU special envoy.
    So I think right now we all see this as problematic for the 
region and we see there are no benefits to be achieved here by 
any of the countries who neighbor South Sudan or those 
countries with an interest in South Sudan. So I think that's a 
good place to be right now.
    Mr. Rohrabacher. And you say even the Chinese are--you 
believe even they are playing a positive role?
    Ms. Thomas-Greenfield. Yes, sir.
    Mr. Rohrabacher. Wow. That's something.
    Ms. Thomas-Greenfield. Got interest.
    Mr. Rohrabacher. All right. Who's providing all the guns to 
these people? I mean, if they were militia and all they had 
were, you know, spears or something like that we probably 
wouldn't be too concerned. But they, obviously, are well armed.
    Ms. Thomas-Greenfield. We think the rebels have been taking 
arms from the SPLA. There are SPLA soldiers who are in the 
north of South Sudan. In areas where they have been able to 
succeed in overtaking them they've been able to get those 
weapons. Also, we know that there have been some defections and 
those individuals are defecting with their arms.
    We have not seen any evidence of where the arms are coming 
from other than what they may have had in their possession when 
this started.
    Mr. Rohrabacher. You know, when people are fighting, people 
who've never seen this up front don't know how fast the 
ammunition has dissipated in any type of a--you know, when 
you're in the middle of some fight you're running out of 
ammunition within a few minutes of the time that something 
starts. Isn't there a supply line of ammunition coming from 
somewhere?
    Ms. Thomas-Greenfield. I am sure that is the case. We have 
not seen it. But it is something that we are looking at very, 
very closely and we're encouraging, again, all of the neighbors 
and others who they might approach for supplies that they 
should not respond to any of those requests.
    Mr. Rohrabacher. Mr. Chairman, I would think that our 
intelligence services should be able to track something like 
that down and there should be some repercussions if we are 
serious about trying to get this conflict under control, at the 
very least of shutting off the supplies so when people shoot up 
with the bullets they've got they aren't going to have to--they 
won't know where the other bullets are coming from.
    That would be a great service and I would think that if our 
CIA can do anything they should be able to find those big 
trucks lumbering across filled with bullets and filled with 
land mines and filled with artillery shells.
    Thank you very much and good luck to you.
    Ms. Thomas-Greenfield. Thank you, sir.
    Chairman Royce. Thank you. Thank you, Mr. Rohrabacher.
    We'll now go to Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you to 
our witnesses for being here today and for the work that you're 
doing.
    I'd like to focus first on the capacity of the U.N. 
peacekeepers in South Sudan on their ability to protect 
civilians who are seeking refuge in the bases, which I think is 
somewhere in the neighborhood of 60,000 people and, of course, 
people outside of those bases.
    As you know, we currently have legislative caps which 
prevent the United States from fulfilling its responsibilities 
unless Congress acts and I think the shortfall in terms of our 
making payments is about $10 million and it means, I assume, 
that critical resources to the U.N. mission there are not 
available and it also, I suspect, means that countries who are 
providing troops, particularly, I understand, Bangladesh and 
Ghana are not being fully reimbursed for their services.
    So would you speak a little bit about the capacity of the 
U.N. mission as a result of this? What impact it has on other 
countries who are part of this effort and what the long-term 
implications are?
    Ms. Thomas-Greenfield. The U.N.--well, let me just start 
there. About 100,000 IDPs have taken refuge around the U.N. 
bases and the U.N. does not have the capacity at the moment to 
provide full protection and support that is needed.
    So one of the first actions that we took was to ask for the 
Security Council to increase the number of troops and there was 
an additional 5,000 approved for South Sudan.
    Mr. Cicilline. Which we supported?
    Ms. Thomas-Greenfield. Yes, sir.
    Mr. Cicilline. Okay.
    Ms. Thomas-Greenfield. And we have been working with the 
troop-contributing countries, with the other supporters of the 
U.N. to try to build up that capacity. I just heard that Ghana 
has agreed, despite the fact that they're not being paid, to 
provide 850 additional troops.
    We have heard from the Tanzanians who have agreed to 
provide additional troops. The Nepalese have provided foreign 
police. The Bangladeshis have provided additional troops and we 
continue to push for other countries to build up the capacity 
so that we don't have a more disastrous situation to occur.
    Mr. Cicilline. Some have--as you know, South Sudan has--I 
want to just move to a different area--has not adopted or 
developed a constitution and some have suggested that that 
process by itself would help to address some of the underlying 
issues surrounding the conflict.
    Do you think that's true? Is there someone who you think 
has the leadership standing to begin that process? I know it 
seems hard to talk about--the development of a constitution in 
the middle of this conflict. But it seems as if we should be 
thinking about helping to support that kind of approach.
    Ms. Thomas-Greenfield. Yes, sir, and thank you again for 
that question.
    We think one of the key areas after the cessation of 
hostilities and the political dialogue starts is that there are 
discussions on their constitutional formation and how they want 
their country to be developed as a democracy in the future.
    So that is being given a great deal of thought. I can't 
give you a name of who might be the person to lead this process 
but I know that Ambassador Booth and others in the region are 
working very diligently on this.
    Mr. Gast. South Sudan currently operates under a 
transitional constitution and you're absolutely right, they've 
been very woefully delayed in moving forward to develop a fully 
vetted constitution, meaning being inclusive.
    They have set up the National Constitution Review 
Commission. It does include a large number of civil society 
groups but it's not fully constituted and we also believe that 
that would be a very good vehicle to help support a national 
dialogue of reconciliation after the immediate hostilities are 
addressed.
    Mr. Cicilline. Thank you. And finally, I think no matter 
how it unfolded there's no question that Machar has led an 
armed rebellion against the government and so when you talk 
about reconciliation and negotiation and resolution do you 
envision that there's a scenario in which he returns to the 
government and is part of the government?
    Is that something which is probable, likely, supportable, 
sustainable? How does that happen?
    Ms. Thomas-Greenfield. I think all of that remains to be 
seen. I think there are some rifts now that have developed that 
will be hard to turn back. We're not going to be able to take 
South Sudan back to where South Sudan was before the fighting 
began.
    So I think this will be a decision that the Sudanese--South 
Sudanese have to make as they look at how they reconcile and 
move forward. But I think it's going to be difficult for him to 
play a helpful role.
    Mr. Cicilline. Yes. Thank you.
    Chairman Royce. Thank you, Mr. Cicilline.
    We go now to Mr. Weber--Randy Weber.
    Mr. Weber. Thank you, Mr. Chairman. I appreciate it.
    Ambassador, thank you all for being here and, Mr. Gast, 
thanks for being here. I came in late so you may have already 
answered a couple of these questions but I'm going to take a 
shot at them anyhow.
    The population of Sudan and South Sudan--do we know what 
that is?
    Mr. Gast. 12 million in South Sudan.
    Mr. Weber. Of South Sudan?
    Mr. Gast. South Sudan.
    Mr. Weber. And how about Sudan itself?
    Mr. Gast. Something in that range. We'll get you the exact 
number.
    Mr. Weber. Okay. And what is the main economy of each?
    Mr. Gast. So for the south they're almost entirely reliant 
on oil and oil production. For Sudan, Khartoum, also oil 
production is a major export but also agriculture is a mainstay 
of the economy.
    Mr. Weber. Okay. Who is their main trading partner, would 
you say?
    Mr. Gast. South Sudan?
    Mr. Weber. Mm-hmm.
    Mr. Gast. Main trading partner would be with the exports of 
the oil so it would be with the Chinese consortium and with 
Uganda.
    Mr. Weber. How about close countries? Does Uganda trade 
with them at all?
    Mr. Gast. Absolutely. So a lot of imports come in from 
Uganda.
    Mr. Weber. And I'm reading that in response to the crisis 
Uganda has sent 1,200 troops into South Sudan and we get 
reports that Ugandan military aircraft have bombed several 
rebel-held positions and that Uganda itself says that that 
action came at the request of President Kiir. Is there a treaty 
that exists between South Sudan and Uganda?
    Ms. Thomas-Greenfield. I don't know that there is a treaty. 
We've spoken to the Ugandans on this and they've been very 
clear in public about what their motivations were.
    Initially, in the communique that the IGAD governments 
issued after they visited South Sudan they announced that 
Uganda was going in to protect the key infrastructure--the 
airport and the road to Nimule from Juba.
    Since then, the Ugandans have been involved militarily and 
they have indicated that they have an interest in a stable 
South Sudan but they also have an interest in ensuring that a 
democratically-elected government is not overthrown by violent 
means.
    Mr. Weber. So have they set up checkpoints, military 
personnel to control or protect that infrastructure?
    Ms. Thomas-Greenfield. Yes. They are--they have troops 
stationed at the airport and they have troops stationed along 
the road and as well to support the bridge leading into Juba.
    Mr. Weber. Done with or without the administration's 
knowledge--foreknowledge?
    Ms. Thomas-Greenfield. Oh, they're very aware. They've been 
very public.
    Mr. Weber. Foreknowledge, I should say.
    Ms. Thomas-Greenfield. Yes. They've been very public about 
it. They were very public in the announcement. This was 
initially announced in the communique so it was done in a very, 
very public way.
    Mr. Weber. And I understand that the U.S.-Ugandan security 
partnership includes significant support from us to Ugandan 
troops that are engaged in regional counterterrorism and 
stability operations. Has our support been used in effect to 
get involved in that civil--in that war?
    Ms. Thomas-Greenfield. We have watched that very closely 
and I think I can say that we have not seen any evidence that 
any support we are providing for that operation is being used 
to support the separate operation that we're not connected to.
    Mr. Weber. Troops are not engaged in the actual fighting 
itself, just the protection of the infrastructure--the Uganda 
troops?
    Ms. Thomas-Greenfield. No, I think we have seen that they 
have been involved in some of the fighting. We understand some 
of the gun ships were used to assist the government in Bor.
    Mr. Weber. Okay. And you--some of the reading I did said 
that a lot of the fighting was over scarce waters and grazing 
lands disputes. How does that get fixed?
    Ms. Thomas-Greenfield. That's a long-term problem that I 
think I can turn to my colleague here to talk about some of the 
activities that we've been involved in to assist them in 
addressing that issue.
    Mr. Gast. It's a long-standing conflict between 
pastoralists and farmers and it's over scarce resources to 
include land, to include water. And so what we have been doing 
at the community level is helping peace commissioners and 
helping tribal leaders work together to address those issues so 
that they're able to negotiate access to land and access to 
resources.
    Mr. Weber. Do they have property rights? Do they own 
property?
    Mr. Gast. That is something that is starting very soon. 
There are multiple systems in South Sudan but we were very 
instrumental in coming up with a land policy.
    Mr. Weber. Thank you. I yield back.
    Chairman Royce. Mr. Lowenthal of California.
    Mr. Lowenthal. Thank you, Mr. Chair, and thank you, Mr. 
Chair for your--for the memorandum that really provided for me 
a context for today's hearing and I also want to thank the 
Ambassador Thomas-Greenfield and Mr. Gast.
    My question regards the emerging infrastructure in South 
Sudan and U.S. companies that invest in infrastructure projects 
to help develop this young country. As you know, quality 
infrastructure, as you both pointed out, can provide that 
economic freedom and the prosperity for a country.
    Last April, at the suggestion of a constituent and with the 
support of Congressman Rohrabacher, I wrote a letter to 
Secretary Kerry and the Acting Secretary of Commerce Blank 
asking for their support for an American or for American 
companies, really, interested in building oil pipelines in 
South Sudan.
    The oil project would bring--was projected to bring in over 
$3 billion to the South Sudan economy. With this conflict what 
his happening to U.S. investment? I don't even know if this 
project is even moving forward at this time. Where are U.S. 
companies now?
    Ms. Thomas-Greenfield. I would guess that they're all 
standing on the sidelines waiting to see how this conflict is 
resolved. I mentioned earlier that December 4th and 5th there 
was an investment conference.
    Business people visited South Sudan. They saw the 
possibilities for investment there. But as long as there is a 
conflict ongoing, none of these companies will be able--whether 
it's infrastructure or other types of investment, will be able 
to follow through on any investments in that country.
    Mr. Gast. I agree they're also sitting on the sidelines. As 
the Ambassador mentioned, the investors conference that was 
held in Juba was very much a success.
    More than 500 persons attended from several hundred 
companies to include U.S. companies. That was followed up by a 
special event that was held in Washington with the CCA where 
the keynote speaker--that's the Corporate Council for Africa--
it's a community of business persons that are interested in 
investing in Africa--where the keynote speaker was the minister 
of foreign affairs.
    So there is interest. There are some U.S. investors. But, 
obviously, this conflict is keeping everyone on the sidelines 
now.
    Mr. Lowenthal. Another question I have has to do with 
humanitarian needs. In our report, with the displacement of 
about 350,000 within the country and about 40,000 have left the 
country for neighboring countries, it talked about that 
approximately half of the displaced people within South Sudan 
have not yet been reached. About half have, half haven't.
    What does that mean that they have not been reached? What 
is their status?
    Mr. Gast. Part of it is trying to identify where the 
displaced persons are moving to. That is a phenomenon that 
happens very frequently in South Sudan when there is a crisis 
predominantly driven by violence.
    People flee towns and go in--what they say into the bush, 
meaning that they're no longer visible and they're surviving 
based on what supplies they brought or whatever humanitarian 
assistance can be provided.
    Mr. Lowenthal. But these are the ones that we have not been 
able to reach. Do we know where they are or----
    Mr. Gast. We have a good sense of where they are and that's 
primarily because the U.N. agencies as well as the NGOs have 
been able to go out and do assessments. The challenge, of 
course, is getting humanitarian supplies that are already 
within country but into the areas where the IDPs are.
    Mr. Lowenthal. And the final question I have is was talked 
about. You know, Vice President Machar really is--kind of 
oversees the rebel forces or those fighting the government. Are 
those--all the people that are fighting are they really 
responsive to the Vice President or are there other interests 
going on?
    Ms. Thomas-Greenfield. There were--there are a large 
number, a variety of militias and rebel groups who have formed. 
We've heard about the white militia--the White Army. They're 
under the guidance of a prophet.
    It is not clear that Riek Machar has command and control 
over all of the militias who are supporting--who are supporting 
his efforts.
    Mr. Lowenthal. Thank you, Mr. Chair, and I yield back my 
time.
    Chairman Royce. Thank you, Mr. Lowenthal.
    We'll go now to Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    I appreciate you two being here and I hope you can shed 
some light on what we can do different or what needs to be done 
different in Sudan and South Sudan.
    You know, looking back over the history since 1956 when 
they got their independence this war has been going on or the 
conflict has been going on. What do you see the main reason for 
the cause of the conflict between the two entities, south and 
north Sudan? Is it different in religion? Philosophical 
beliefs?
    Ms. Thomas-Greenfield. The initial fighting between the 
conflict in Sudan that led to the creation of South Sudan was a 
very, very long-term conflict that had a basis in religion, in 
ethnic prejudice between the Arab north and the African south, 
and in a result of there not being political inclusion.
    Mr. Yoho. Okay. And that's what I see over and over and 
over again. That's like the movie ``Groundhog Day.''
    You know, we wake up to the same thing and, you know, I've 
got here in a report right in front of me that we spend $2 
billion annually in recent years between the north and the 
south--$2 billion of the American taxpayers' money and we've 
been doing this for year after year after year.
    Yet I'm reading an article here about China, and China has 
become South Sudan's largest trading partner, the single 
biggest trading partner, having overtaken the United States 
over the past decade but professes to remain neutral and not 
interfering in African states in their internal politics.
    Of all the oil that's produced in South Sudan, who 
purchases most of that? What nation purchases that?
    Mr. Gast. So there are two consortia that have concessions 
with the Government of South Sudan--one principally Chinese, 
the other one Malaysians. But there are Chinese--there's 
Chinese ownership on both.
    And so if one were to look at, you know, the revenues--
where they go to--roughly 45 percent of the revenue goes to the 
Government of South Sudan. Then another 40 percent goes to the 
consortia and then another----
    Mr. Yoho. Let me rephrase that. Who benefits for--I don't 
want to say benefit--who uses the majority of that oil? What 
country? Where does that go to?
    Mr. Gast. So it would be going--it would be going eastward.
    Mr. Yoho. Right. China is what I have--80 percent of that.
    Mr. Gast. Yes. Yes.
    Mr. Yoho. How much foreign aid does China put into that 
country?
    Mr. Gast. I wouldn't call it foreign aid but they have 
provided--they have provided buildings----
    Mr. Yoho. Investment.
    Mr. Gast. Investment. Some investment and some----
    Mr. Yoho. And your answer on the money that goes to USAID, 
you know, no offense but it was kind of a gobbledy-gook answer 
because it wasn't going--there was no accountability is what I 
saw, you know.
    And, again, we're putting billions of dollars--you said 60 
percent of the money that we send over there kind of gets 
filtered through the end through these different agencies and 
what I've seen in my short time here of a year is there's no 
accountability.
    I think we need to focus on aid--or trade, not aid. I think 
China is ahead of us in here and it's reflected in that they're 
the largest trading partner.
    If we become trading partners with a country like Sudan, 
instead of forcing Western ideals on a country that does not 
want those and it's been proven over and over again, and if we 
can build economic base in trade they'll come our way and in 
the meantime China knows this and they're kicking our rear end 
and our competitiveness is getting killed.
    Mr. Gast. You make some very good points, Congressman.
    Mr. Yoho. Thank you.
    Mr. Gast. Let me just add to that. What I mentioned was the 
amount of humanitarian assistance that we're delivering. I 
didn't mention the development assistance which amounts to 
about $300 million a year.
    Now, you're talking about trade. Unfortunately, there's 
very limited capacity within the country for trade----
    Mr. Yoho. I agree.
    Mr. Gast [continuing]. To include the development of 
businesses, infrastructure, government systems and that's what 
we're trying to do is build that foundation so that businesses 
can develop and that South Sudan can take advantage----
    Mr. Yoho. So instead of going through the U.N. and letting 
that money go through there why don't we use American companies 
and invest in infrastructure and things that we can trade and 
start from the ground floor up instead of filtering it through 
the U.N. where it never gets to seem, like, where it needs to 
go?
    I mean, I just read in here that 10 percent of one of the 
food drops that went over there got hijacked and it was enough 
to feed 180,000 people. And, you know, we keep doing those 
things.
    China is putting in infrastructure, trading with them and 
they become a reliable partner, and you guys, between the two 
of you, you've got 50-some years of foreign aid experience.
    Help us redirect policy to where we get the bang for our 
buck, and it's not about the money. It's about results. And if 
we have good economic development over there the people of 
Sudan will grow their economy and they'll settle a lot of their 
own problems.
    I yield back. Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    We go now to Dr. Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman, and thank you to the 
witnesses.
    You know, before I ask my first question, just in December 
we followed pretty closely the evacuation or the initial 
attempt at evacuation of Americans from the conflict zone in 
Bor and then, ultimately, getting them out.
    So Ambassador, are the Americans that are in South Sudan 
being evacuated or, you know, or how is that going?
    Ms. Thomas-Greenfield. Since the conflict started we've 
evacuated more than 300--no, more than 400 American citizens. 
We have also evacuated other citizens who've expressed a desire 
on a space available basis.
    We're tracking an additional 300 or so American citizens 
who still may be there who have not asked for assistance and we 
are urging in no uncertain terms that American citizens 
consider--in our travel advisory that they consider leaving 
South Sudan because our ability to continue to evacuate is 
limited.
    As you know, our Embassy is down to minimal staffing and we 
are no longer providing the charter flights that we were 
providing.
    There are still commercial flights, as I mentioned earlier, 
that are available for those American citizens to depart and 
we're encouraging them to take those commercial flights.
    Mr. Bera. And we do have adequate contingency plans should 
things deteriorate rapidly?
    Ms. Thomas-Greenfield. Absolutely. We're watching this 
situation almost on an hourly basis and, as I mentioned 
earlier, we come together several times a day to do an 
assessment of the security situation in Juba.
    But, again, I want to stress how important it is for us 
without taking the security of our people for granted for us to 
keep our flag flying in Juba.
    Mr. Bera. Sure. And we have taken steps to protect our 
diplomats and Embassy personnel in Juba?
    Ms. Thomas-Greenfield. Currently, we have about 45 East 
Africa Response Force military troops in South Sudan protecting 
our Embassy facility.
    Mr. Bera. Great. Thank you.
    Now, shifting to the conflict, just so I can better 
understand it, would you characterize this as a religious-based 
conflict, Muslim versus Christian, or would you characterize it 
more as an inter-tribal conflict?
    Ms. Thomas-Greenfield. This is inter-tribal and it's a 
clash of personalities.
    Mr. Bera. Okay.
    Ms. Thomas-Greenfield. It is a result of political 
ambitions and a combination of lack of political space in a 
country where the institutions are not well established to deal 
with those kinds of conflicts.
    It's a new country and so we're hoping that if--when the 
cessation of hostilities stop that we can get the parties 
around the table to work out what are currently their political 
issues.
    Mr. Bera. And if I recall, some of the early media reports 
and so forth as they were characterizing the conflict has there 
been prevalent use of conscripted child soldiers in this 
conflict by the rebels?
    Ms. Thomas-Greenfield. I think that is something we're 
watching and we're very concerned about. We are hearing about 
youth militias. Individuals are being armed in communities.
    It would not be surprising to hear that some of these are 
individuals who are underage and that is something that is a 
real problem and a real concern for us.
    Mr. Bera. Okay. Shifting to Mr. Gast, clearly, our focus 
right now is de-escalating and finding resolution of the 
current conflict. But, you know, if we were to step back and 
look at, you know, the 3 years of South Sudan's independence 
and some of the investments that we've made--and you touched on 
the development assistance--how would you assess that and what 
are some of the successes we've had as well as some of the 
challenges we've had?
    Mr. Gast. The overwhelming challenge is lack of capacity 
and that includes human capacity. Because of the three decades 
of war with the north, people weren't educated and those who 
were educated left. And so it means starting from scratch and 
building a country.
    So there have been some accomplishments and, you know, over 
a 2\1/2\-year period of time and even some of the work that we 
had done pre-independence.
    But building institutions of economic governance. There is 
a functioning central bank. It has its own currency. It's 
managing the foreign exchange fairly well albeit with 
assistance from the international community.
    There's a ministry of finance that is managing a budget and 
trying to include principles of transparency so that one can 
see how the money is spent and track not only at the national 
level but moving down to the state level and even to the county 
level.
    So there are those systems that are being built. We do see 
some significant development gains. For example, enrollment in 
schools has more than quadrupled over the past--over the past 
5, 6, 7 years.
    So that's a major accomplishment. There's more to be done. 
We're not satisfied with the percentage of those who are 
registered in schools who are girls. It's currently 39 percent 
and we want to push that effort as well.
    But education is a major thrust because you can't have 
institutions without educated persons.
    Mr. Bera. Right. Thank you. I yield back.
    Ms. Ros-Lehtinen. Mr. Meadows is recognized for 5 minutes.
    Mr. Meadows. Thank you, Madam Chairman. Thank you both for 
your testimony.
    I wanted to follow up on one area that has been addressed. 
But as we look at some of what has happened over the last few 
months, what would you say is the number one thing that we 
could do either from a policy standpoint or from a legislative 
standpoint to provide a more stable environment so that we 
don't have a repeat of this? And either one of you who would 
like to comment on that I'd love to hear your position.
    Ms. Thomas-Greenfield. Sorry. I think we have to stay 
engaged with South Sudan. This is--I think Congressman Royce 
referred to this as really depressing and it is depressing for 
all of us.
    But we have to sustain our engagement with them to get them 
through this process. It's a very young country. It's only 3 
years old and a lot of the institutions that need to be 
developed to help them address these kinds of fissures in their 
society are not there yet.
    And so, again, I just think it's important that we remain 
engaged. We have to make certain in no uncertain terms to the 
warring parties that we do not support their efforts and that 
those who are involved in activities that are interfering with 
peace, who are committing atrocities and human rights 
violations will be held accountable and we should certainly 
support the efforts of those in the region who are trying to 
bring about peace as well as support this country as it moves 
forward.
    Mr. Meadows. Being sensitive to the diplomatic component of 
this, how do you feel Congress, or Members of Congress, can 
express in more than words the need for these warring factions 
that--you know, you say it won't be tolerated. There's a lot of 
things that we say here in Washington, DC, that we'll never 
tolerate that we do.
    And I guess what I'm saying is how do we go beyond that to 
put some meat behind the words that may come from us, not 
necessarily from you? Where could we address that? Is that an 
economic component or an aid component?
    Ms. Thomas-Greenfield. I think it's a number of components 
but I would appreciate the opportunity for consultations with 
you and other members of the committee on how we might address 
some of these issues of accountability as we move forward.
    Mr. Meadows. All right. Mr. Gast?
    Mr. Gast. Let me just add a few more things. Let's say that 
the immediate hostilities are addressed. I think at that point 
we'll have--the international community will have some leverage 
on the reforms taking place in South Sudan.
    As we mentioned earlier, one is moving forward with the 
constitutional process and included in that could be national 
reconciliation and international dialogue and we do know that 
2015 elections are coming up for national level and state level 
positions. And so that is an important part, the national 
dialogue and leading to the elections.
    With regard to your comment about or your request for 
assistance from Congress, I think what we would like to do 
because we're in a pause right now--we don't know how the 
situation will work out--but it will certainly affect our 
thinking--our strategic thinking on how we deliver development 
assistance and that's a dialogue that we would like to have 
with you and others on the committee.
    Mr. Meadows. I've had a couple of conversations with the 
U.N. Ambassador and her particular assessment of the situation. 
Without being too illuminating, would you say that your 
assessment and her assessment would be one and the same or 
where would they be different if indeed they are different?
    Ms. Thomas-Greenfield. I'm not sure what her assessment----
    Mr. Meadows. You're not sure what her----
    Ms. Thomas-Greenfield. I'm not sure what her assessment 
was.
    Mr. Meadows. Well, she was fairly--before a lot of this 
happened there was some action that was going to be taken here 
in the House. She made a plea for that action to not happen and 
it was fairly optimistic that progress was being made.
    Do you--would you characterize it as progress being made or 
not?
    Ms. Thomas-Greenfield. I'm sure at the point that she spoke 
to you we may have been making progress and, certainly, having 
gone through what we've gone through over the past 2 weeks in 
dealing with the situation on the ground there we are certainly 
reassessing that.
    I think we're moving forward toward a cessation of 
hostilities so maybe that's a bit of progress right now. But I 
think it remains to be seen how we move forward on the talks 
and the negotiation on the constitutional efforts and dialogue 
in the future.
    Mr. Meadows. Thank you both for your heart and your 
testimony, and I yield back, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Meadows.
    Mr. Kennedy is recognized.
    Mr. Kennedy. Thank you, Madam Chair.
    To the witnesses, thank you very much for your time, for 
your persistence, your patience this morning and, most 
importantly, for your years of service to our country.
    I also want to thank the State Department and some of your 
colleagues there that were instrumental in helping to get, 
working with a couple folks in my office, some constituents 
from Massachusetts out of the region in the time of crisis. And 
so many, many thanks from some grateful friends.
    I guess I'd like to start with you, Madam Ambassador, if I 
can and both of you, really, open--I'd like your thoughts on 
both of these issues.
    You affirmed in your testimony that there's not going to be 
a military solution to this crisis--that it's got to be 
diplomatic--and I just wanted to try to pin that down in 
perhaps a little bit more long-term approach.
    Oil counts for nearly 100 percent of all of the state 
revenues in South Sudan but we haven't seen yet the South 
Sudanese Government invest those funds in meaningful ways in 
education, agriculture, infrastructure, as some of my 
colleagues touched on.
    Nearly half of the country's population is children and 
two-thirds of the South Sudanese population is under the age of 
24. So in terms of population and population growth, 
particularly, South Sudan is the third fastest growing country 
in the world.
    As natural resources and the expanding human capital of 
South Sudan could undoubtedly allow for a different path 
forward, how can the international community, your agencies--
State Department, this committee--help to take a longer-term 
view to ensure that with the demographic changes we're not 
going to be here 10 years from now seeing the exact same or 
similar levels of instability? Why don't we start with that?
    Ms. Thomas-Greenfield. Let me start and then I'll turn to 
Earl.
    The statistics that you quote we're very conscious of and 
very aware of and we know that we have to work with this 
government to turn those statistics around because otherwise we 
will be here 10 years from now with the same problems.
    So in terms of our own aid strategy, these are some of the 
things that we're looking at, and I'll turn to Earl.
    Mr. Gast. So you're right. I mean, are they making the 
investments in their own population--talking about the 
government--and for the '13 and '14 budget that the government 
submitted there was a significant line item one investment in 
people, an investment in infrastructure, recognizing that the 
donor community would still absorb most of the burden.
    And I think what we have seen because of the oil shocks 
that won't happen this year. They do have, and I would say that 
it's a world class standard petroleum revenue management bill 
that was about to be signed by the President, which conforms 
with EITI standards.
    And in that bill, absolutely focusing on transparency, 
transparency in terms of the revenue received by government as 
well as the revenue paid by the companies to the government, 
there was--and the Norwegians helped develop this--an 
investment fund where they would draw down on resources in a 
transparent way to invest in the country.
    I think because of this conflict and also because we're 
seeing a significant reduction in oil production because of the 
conflict I can say that it's probably fair to say that that's 
not going to happen in the near term.
    We do have a focus on youth and part of it is through 
education programs, not just at the primary level but also the 
secondary level. But we have seen a lot of idle youth who have 
very few employment opportunities and also are very much one to 
generally get involved in conflicts.
    So that's part of our peace dialogue on reconciliation 
programs is looking at livelihoods and getting young people 
involved in things that are income producing rather than 
destructive for the nation.
    Mr. Kennedy. Thank you, and I'd love to just continue the 
conversation about that longer-term horizon with you after the 
hearing.
    And then, Madam Ambassador, very briefly following up on 
one of my colleagues from--in the Senate, Senator Markey, last 
week I think asked you a bit about U.S. arms exports and the 
potential to look at those policies a little bit more closely.
    You said that was kind of on the horizon or on the radar 
screen. Any more you can--care to elaborate on that at this 
point?
    Ms. Thomas-Greenfield. Thank you for giving me an 
opportunity to clarify on that. We have not provided any lethal 
support to South Sudan at all. We have provided them with some 
communications equipment.
    We've provided them with other non-lethal equipment and we 
have been providing them with training to help them become a 
more professional military. But we have not provided them any 
lethal weapons. I think all of the weaponry that they have in 
their possession they have purchased.
    Mr. Kennedy. Thank you. Thank you to both--you both and I 
yield back negative 15 seconds.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Kennedy. I'll 
take your 15. The chair recognizes herself now.
    I, like all of the members of our committee, am gravely 
concerned with the ongoing crisis that we see unfolding in 
South Sudan, and when I was the committee's ranking member I 
had the honor of co-chairing a fact-finding mission to Sudan 
with then House Majority Leader Steny Hoyer which included a 
site visit to an internally displaced persons camp in Darfur 
and a meeting with Salva Kiir, the President of Southern Sudan.
    There we saw firsthand the dire conditions that this 
horrific conflict has brought to the people of this region, and 
as we watched the long-awaited independence ceremony following 
the 2011 referendum, we were all hopeful that South Sudan could 
achieve a stable and durable democracy.
    But it was clear that South Sudan's referendum and 
independence would not mark the end of this crisis but that 
harder work still remained ahead.
    Education, good infrastructure--those are the keys toward 
building a successful South Sudan. But it will require, as we 
know, a lot of time and resources to change conditions in the 
country that is plagued by deep-rooted tribal tensions, by 
poverty, and by underdevelopment.
    South Sudan has one of the most fertile soils in Africa yet 
only a small percentage of that soil is being cultivated.
    It has the potential to be the food basket for Africa, 
which would help it in becoming self-sufficient and becoming 
prosperous, and as the highest donor country we have put 
immense political capital and U.S. resources into South Sudan.
    So I ask you what efforts is USAID making to improve 
literacy, to improve transportation, to improve its 
infrastructure programs? And I will continue. Also, a prolonged 
war in South Sudan would lead to massive flows of refugees.
    This could destabilize the entire region. And just 
yesterday we saw this sad report. Two hundred civilians or 
more, many of them women and children, died as a result of 
trying to flee across a river on a raft and this tragedy 
underscores the grim reality that the Sudanese people are 
facing daily. And we're all so wary of foreign governments 
investing in South Sudan's oil industry.
    South Sudan is rich in natural resources, as we've 
discussed, so China and other countries who have invested there 
may view this conflict as an opportunity to expand their 
influence.
    Given our vested interest in South Sudan, losing influence 
in this region would be a severe blow to our U.S. national 
security interest. And so I ask if the situation with the 
security deteriorates how can we secure our interest in South 
Sudan?
    Despite the great challenges that are facing South Sudan, I 
think that we all remain hopeful that the world's youngest 
country will unite, will move forward toward building a stable 
and prosperous future for its people.
    South Sudan has great potential to become a true success 
story in the continent that can be a model for other developing 
countries to emulate and we hope and we pray and we will work 
so that this conflict will be resolved in a prompt and peaceful 
manner.
    And so I ask about USAID and the efforts that we're making 
on literacy, transportation and infrastructure in South Sudan 
and what are we doing to secure our interests in South Sudan 
with all of these competing countries being invested there. 
Thank you.
    Mr. Gast. Thank you, Congresswoman, for your questions.
    You're absolutely right. Conflict and war more than 
anything affect development and so South Sudan and Sudan had a 
conflict that lasted nearly 30 years, and now we see more 
conflict in South Sudan. And so we hope that that doesn't rob 
the development results that we've achieved over the past few 
years.
    We have made a concerted effort to focus on education and, 
as I mentioned earlier, we're very pleased with enrollment 
rates more than quadrupled over the last 6, 7 years. But we're 
still not satisfied with the number of children or percentage 
of children who should be in school who are actually in school.
    That is roughly 50 percent. And so now we're making a 
concerted effort to focus on those areas and not--surprisingly, 
those areas where there are lowest enrollment rates are those 
that are vulnerable to conflict.
    And so we have a new program that's part of the Room to 
Learn agenda of UNICEF and others that really looks at 
providing security to those students and families where 
students are going to school and that, of course, affects 
girls' enrollment too. So we hope that will have a very good 
effect.
    You mentioned transportation. We actually, with the support 
of Congress, spent $200 million on rebuilding a highway from 
Juba to Nimule which is the border of Uganda, which is 
absolutely critical to the economy of South Sudan. More roads 
like that are needed.
    We feel that our comparative advantage is supporting feeder 
roads that support agriculture and we're doing that--more than 
1,000 kilometers of feeder roads.
    Ms. Ros-Lehtinen. Thank you, and I apologize, Madam 
Ambassador, but I've run out of time. Thank you very much.
    Thank you, and I know you have more to say but let me turn 
to the committee's ranking member, Mr. Engel, who's just come 
back from a grueling trip to Israel and we thank him for his 
perseverance and strength in being here today.
    I know those trips are long and hard. Thank you, Eliot.
    Mr. Engel. Thank you, Madam Chair, and thank both of you 
for your good work and your hard work.
    Let me start with you, Assistant Secretary Thomas-
Greenfield. Obviously, we're a month into this crisis. Neither 
side is budging. The fighting is continuing.
    What more are we doing--the administration doing to get the 
two sides serious about negotiating a cease fire? Are we 
looking at targeted sanctions or are any of our partners--U.K., 
any of the other countries--putting additional concrete 
pressure on President Kiir and former Vice President Machar?
    Ms. Thomas-Greenfield. Thank you, sir, for that question.
    We are putting a tremendous amount of effort into pushing 
the two sides to the negotiating table once there is a 
cessation of hostilities.
    Ambassador Booth has been out--our special envoy has been 
out there since the 22nd of December and he has been relentless 
in his efforts coordinating, very closely with the negotiators 
as well as the other special envoys.
    We are exploring possible options for pressuring those 
individuals who have been spoilers to the peace process--those 
individuals who have committed atrocities and who are 
committing human rights violations.
    We're looking at what pressures we can put on those 
individuals in the future and we are letting them know that we 
are exploring those possibilities so that they know that there 
will be consequences to what they are doing.
    Mr. Engel. Thank you.
    Mr. Gast, let me ask you. The ordered evacuation of USG 
personnel and contractors from South Sudan, obviously, affects 
our ability to conduct critical aid programs. That's both in 
the areas affected by the crisis, the worst areas, and in areas 
that have remained stable.
    How has this evacuation affected our ability to conduct 
these aid programs?
    Mr. Gast. It's actually affected our ability on the 
development side. We do have--as the assistant secretary 
mentioned, we do track all Americans and we do have about 25, 
26 Americans who are working with NGO partners and we are 
seeing actually a number of expats--significant number of 
expats returning to provide humanitarian assistance.
    We do have a few development programs that are continuing 
but, as I mentioned earlier, with the conflict we're taking a 
pause to assess where our priorities might change moving 
forward.
    Mr. Engel. The whole thing--I know my colleagues have 
mentioned this--is such a tragedy because we had and still do, 
I mean, high hopes for this country. So let me just say--ask 
either one of you--we are still, obviously, the largest donor 
to South Sudan.
    What should we be doing differently moving forward to help 
make South Sudan a more successful state, and given the 
widespread abuses that have taken place on the part of the SPLA 
is it even possible to continue providing that force with U.S. 
assistance?
    Ms. Thomas-Greenfield. First, to your question what can we 
do differently, and I think what we need to do is focus intense 
attention on institution building so that the government is 
able to sustain itself when there are these kinds of political 
frictions that take place that allows a government to continue 
to operate even when the political players are not talking to 
each other, and those institutional--that institutional 
stability doesn't exist now.
    It's only been a country for 3 years. But I think our 
efforts have to be intensified on that front. And yes, we have 
to continue to work with the SPLA. We have to continue to work 
with them to professionalize them. They are a huge group.
    I think I've seen numbers as high as 120,000. Many of them 
were extraordinary fighters. They were militia. They were never 
trained military and so they need to be professionalized--and 
if we don't do it I don't think anybody else will--so that we 
can ensure that in the future when this kind of thing happened 
we have a professional military and not militias who have been 
pulled together under a so-called army.
    Mr. Engel. Thank you.
    Mr. Gast, anything under the wire?
    Mr. Gast. Sure. I would add that we need to support other 
voices and redouble our efforts in supporting civil society, 
media and also new political parties that are emerging.
    Mr. Engel. Thank you. Thank you, both. Thank you, Madam 
Chair.
    Ms. Ros-Lehtinen. Thank you very much, Ranking Member 
Engel.
    And now we turn to Mr. Vargas for his 5 minutes.
    Mr. Vargas. Thank you very much, Madam Chair. I appreciate 
it, and again, thank you for this hearing.
    What a tremendously sad situation we're in. I think that 
both South Africa and Sudan have been the two African nations 
that have received the most attention by Americans. I know that 
my children certainly know about Sudan and South Sudan because 
of Darfur, the genocide there and all the problems that these--
that this region and this country, now these two countries, 
have had, and it seems that our efforts have sometimes not gone 
very far in the sense of actual outcomes.
    I know you hear some frustration here today and I think 
we're starting to hear it more and more in our districts that 
we've put so much time, attention and money into this situation 
in this country, in these two countries, and, you know, the 
outcomes seem to be terrible--seem to revert back to old tribal 
fights, personalities.
    I'm glad you did mention the upcoming election because it 
seems to me that a lot of it was based on that. One person 
wanted to stay in power. The other person wanted to challenge 
him. Didn't seem like it was going to work so one person 
decides to leave, you know, starts a fight.
    All of a sudden, you know, it breaks down under ethnic old 
fights. I mean, what do we do? I mean, the American people are 
starting to get, I think, really weary of this. Even though, 
again, I think we're the most generous people in the world.
    Always when you see a massacre we're the first people who 
want to help. But, man, this is going on forever in this 
particular region. What can we do?
    Ms. Thomas-Greenfield. We feel the frustration as well 
because so much has been invested in South Sudan, not just 3 
years ago when the country became independent but for many, 
many years prior to independence, and you described it as sad 
and, as I mentioned, Congressman Royce said it was depressing 
and we all feel that.
    But we think we have to stay engaged and I think the 
American people would want us to stay engaged, that we have to 
continue to push this country forward, to nudge them in the 
right direction.
    Ultimately, the decision is theirs. We didn't cause this 
war. They caused the war. They're responsible for what has 
happened. But at the same time, we have to keep working for 
those voiceless people--the men, women and children who are 
victims of this war.
    Mr. Vargas. And I agree and I apologize for interrupting 
you, and I think the American people, certainly, people in my 
district feel the same way.
    Whenever they see massacres, whenever they see, you know, 
people drowning they want to help. I mean, that's our natural, 
I think, as Americans inclination. But at the same time, you 
have to have some outcomes that are positive.
    I mean, and here we--you know, we thought we were going to 
have a very positive outcome. I mean, you had all these real 
problems because, I mean, let's be factual about this. I mean, 
Sudan's an interesting country, part of Egypt for a while, more 
Arab north, African south--Muslim north, Christian south.
    All of a sudden we think we get, you know, some of those 
things straightened out and all of a sudden there's these 
fights that break out and we're saying well, wait a minute--now 
it's down to the tribal level and they're fighting. I mean, 
what do we do? I mean, there's real frustration here.
    Ms. Thomas-Greenfield. Yes.
    Mr. Gast. Congressman, you ask what are we getting with our 
assistance. We're keeping people alive, which is greatly 
important, and also we're providing opportunities to people and 
we're seeing that through education. More kids are going to 
school than ever before.
    We're seeing really positive outcomes in health. People are 
getting vaccinated. They're able to go to school. We're also, 
through our assistance, creating employment opportunities.
    Now, they're small opportunities but they're very important 
opportunities to the people that they affect and that is 
getting them involved in farming and increasing their yields 
and increasing what money that they take home.
    Mr. Vargas. Last question and then I'll yield back.
    I'm glad you brought it up--the issue of children and 
children soldiers. Obviously, it's been a horrific issue in 
this area. What are we doing to make sure that that doesn't 
happen?
    So many of the people in this country are young. What are 
we doing to assure that these poor kids are not being dragged 
in as soldiers?
    Ms. Thomas-Greenfield. Part of the problem is the lack of 
opportunity and education for children. So trying to reach 
those children to provide them with educational opportunities 
is, as Mr. Gast said, are part of what we're doing.
    But we're also pressuring the governments in this country 
as well as around the region not to use child soldiers and 
making sure that they understand that there are consequences 
should they use child soldiers.
    There are children who are being armed, I believe, in this 
current conflict and this is something that has us quite 
worried.
    Mr. Vargas. Thank you. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Meeks is recognized.
    Mr. Meeks. Thank you, Madam Chair.
    You know, this is a sad situation. I, first, want to thank 
you for your testimony and but taking everything into context, 
all of the investments, the hopes that we had of establishing a 
good new nation and, quite frankly, you know, I still have the 
faith and confidence over the long haul we can't give up.
    We've got to get it done. It is significant. Not just for 
us and the United States--it's significant for the region. It's 
significant for the continent of Africa. It's significant for, 
I believe, the entire area.
    And any time that you have a new nation of the sorts of 
South Sudan there's various people that have interests, I 
think, and I know that it's oftentimes we want to do it as the 
United States and we should lead.
    My question is, though, part of that leadership, I think, 
should also be how are we helping coordinate and strengthening 
because I think that we do more or we're more successful when 
we do certain things in a multilateral way as opposed to a 
bilateral way because other countries have interests also.
    And we sit down and we talk to them and we work 
collectively in a multilateral way to try to get a result and I 
would imagine that there are other governments that have 
leverage also, not just us but have leverage also to the South 
Sudanese Government.
    So what are we doing or how are we partnering with others 
so that it's not just the United States? I hear education and 
roads where we're talking about that. Are we leveraging and 
partnering with others so that it's our dollars and whatever 
dollars that others are also putting in so that we are still 
creating these institutions and they can feel if there's 
pressure? Pressure not just from us. Pressure from others also 
in a multilateral way to try to start moving this in the right 
direction and to try to get them to understand even when they 
get to the point of trying to do a constitution that's going to 
be difficult and everybody has to be involved therein.
    So talk to me about our leadership and trying to work 
together in a multilateral way.
    Ms. Thomas-Greenfield. We have been working very, very 
closely first and foremost with the regional players, with 
IGAD. They are leading the process of trying to get the parties 
to the negotiating table.
    We have been very--we've been backing that effort with 
Ambassador Booth and others in the field. But they're taking 
the lead. We're not taking the lead and they're putting the 
pressure on both sides along with our pressure.
    We are also working closely with other special envoys who 
are out there. The Chinese are there with their special envoy. 
The U.K. has an envoy.
    EU has an envoy and we are coordinating closely with them, 
putting pressure on--using leverage that we all have to put 
pressure on the various parties. And here from the Washington 
side we've been closely coordinating and working with capitals, 
one, to get, you know, the Vatican, for example, and with the 
U.K. foreign minister and the French foreign minister to get 
them to add their voices to the parties who are involved in the 
fighting.
    So there are a lot of different pressure points we're using 
but we're coordinating closely. We don't see us as being the 
solution to this problem. We see working together with others 
and we've also gone to the U.N. to get support in the Security 
Council.
    We're working with troop-contributing countries. So, again, 
we're just one of the players, not the only one.
    Mr. Gast. Those countries that are most active on the 
political side also happen to be the ones that are most active 
on the development side and so there is a very active group of 
countries, representatives in Juba as well as headquarters that 
interact on a daily basis--the Norwegians, the EU, the Brits, 
the World Bank, the IMF, the African Development Bank.
    I'm leaving others out. But there is a very strong core 
group and it's been very important because we together have 
come up with policies that we're going to push on that are 
critical to transparency and establishing strong institutions.
    And so when we--what we have found is when we work together 
we're able to work more effectively with the Government and the 
people of South Sudan.
    Mr. Meeks. Unfortunately, I'm out of time.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Meeks.
    Proud to recognize Mr. Connolly of Virginia, who is not 
retiring.
    Mr. Connolly. Sorry to disappoint some of my friends on the 
other side of the aisle. I'm here.
    Thank you, Madam Chairman. Madam Ambassador--and welcome to 
you both--in the case of some skeptics doesn't this current 
violence and instability suggest or call into question the 
logic of creating this as a nation state to begin with?
    I mean, critics--skeptics might look at this and go well, 
part of it's predicated on the lack of logic of South Sudan as 
a nation state to begin with. How would you address that?
    Ms. Thomas-Greenfield. I think that would disappoint a lot 
of people who have spent most of their lives in South Sudan 
fighting for their freedom in a country where the rights of 
people of African descent and those who are Christian were 
ignored and denied for many, many years.
    That was the genesis of the battle that the South Sudanese 
fought in Sudan. We supported that battle for 50 years. There 
are many Americans who have been part of that battle and there 
are now many Americans of Sudanese descent who have sacrificed 
and lost their families to support the right of South Sudan to 
exist as a country. And we're all disappointed. We're all 
disappointed at the current failure.
    Mr. Connolly. But, Madam Ambassador, excuse me.
    My question wasn't about blood--you know, the valor or 
nobility of the cause. It was the logic of the cause, though.
    Does this in retrospect cause some in the international 
community to question the logic of South Sudan as a nation 
state despite our best efforts, despite all of the noble blood 
shed? Nonetheless, one wonders what have we done here. Is that 
a fair question, from your point of view?
    Ms. Thomas-Greenfield. Probably not a fair question. I 
think that no one is questioning the logic of South Sudan. If 
we question the logic of South Sudan, we'll have to question 
the logic of almost every African country where there are 
artificial borders that have crossed lines that they should not 
cross.
    Mr. Connolly. Fair point.
    Ms. Thomas-Greenfield. So I don't think we question the 
logic. We still support the right of this small nation to 
exist.
    Mr. Connolly. Okay. You also in response, I think, to Mr. 
Bera's question you came down on the side of this is more 
tribal than anything else. I think I heard your answer 
correctly.
    But what about the political overlay which certainly 
there's a lot of bleeding between the two but between, say, the 
President and his former Vice President, the latter making 
certain political charges against the President and already on 
an authoritarian streak and so forth?
    Isn't there that political overlay that maybe has helped 
spark this violence?
    Ms. Thomas-Greenfield. It actually started the violence----
    Mr. Connolly. Yes.
    Ms. Thomas-Greenfield [continuing]. And it is becoming more 
ethnic and tribal but it didn't start that way.
    Mr. Connolly. Gotcha.
    Ms. Thomas-Greenfield. There's no religious component to 
it. It's political ambitions and people are dividing along 
tribal lines.
    Mr. Connolly. And a final question. The U.N. added some 
peacekeeping troops for South Sudan last month. Two questions, 
real quickly--what's been the history of peacekeeping 
operations, from the U.S. point of view, in Africa? Is there 
reason to be a little skeptical or are we fairly happy with 
results?
    And, secondly, what about our own responsibilities? We are 
in arrears in our payments to peacekeeping missions. So here we 
are putting and supporting another burden on them but we're not 
always willing to step up to the plate and fully fund our fair 
share of the PKO.
    Ms. Thomas-Greenfield. Yes. That question came up earlier 
on us not funding our share. But we still support the use of 
peacekeeping operations on the continent of Africa.
    Some are more successful than others but the important role 
that they play I think there's no question about and I have to 
say that we are tremendously appreciative of the countries who 
are troop-contributing countries. Ghana just added another 850 
troops.
    They are one of the countries where their troops aren't 
being paid. The Bangladeshis, the Nepalese have added 
additional troops. Tanzania has also added additional troops. 
So we appreciate that and we think they do have a positive role 
to play, particularly in this situation now.
    Mr. Connolly. Thank you. Madam Chairman, obviously, if I 
had more time I'd ask Mr. Gast a string of questions about 
infrastructure and what we're doing in terms of investment and 
what we hope the outcome is going to be in 10 years.
    But, of course, I don't have that time. I won't be able to 
ask those questions but maybe we'll have some----
    Ms. Ros-Lehtinen. He will be around so that you can----
    Mr. Connolly. He'll be around?
    Mr. Gast. I'll be around for questions on the record.
    Ms. Ros-Lehtinen. Thank you so much. And on behalf of our 
Chairman Royce, I would like to thank both of our witnesses for 
joining us today. As many members have noted, this committee 
has long been involved in Sudan policy and we'd like to work 
with the administration to give South Sudan a chance of lasting 
peace.
    Thank you, and this meeting is adjourned. Thank you.
    [Whereupon, at 12:11 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


              Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Material submitted for the record by the Honorable Edward R. Royce, a 
Representative in Congress from the State of California, and chairman, 
                      Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
